No. 19-569 (CAPITAL CASE)

INTHE

~upreme <teourt of tbe Wniteb ~tateg
CARLOS MANuEL AYESTAS,

V.

Petitioner,

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF
CRIMINAL JUSTICE (INSTITUTIONAL DIVISION),

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Deanna M. Rice, a member of

the bar of this Court, certify on this 28th day of January, 2020, that the Reply Brief
for Petitioner in the above-captioned case contains 2,992 words, excluding the parts
of the brief that are exempted by Supreme Court Rule 33.l(d).

Deanna M. Rice

